<html>
<title> - SUDAN: U.S. POLICY AND IMPLEMENTATION OF THE COMPREHENSIVE PEACE AGREEMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   SUDAN: U.S. POLICY AND IMPLEMENTATION OF THE COMPREHENSIVE PEACE 
                               AGREEMENT

=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

                           Serial No. 111-71

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
51-658                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="680f1807280b1d1b1c000d0418460b070546">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California<greek-l>As 
    of 3/18/09 deg.
               Noelle Lusane, Subcommittee Staff Director
          Sheri Rickert, Republican Professional Staff Member
                     Antonina King, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Roger P. Winter (former United States Special Representative 
  on Sudan to Deputy Secretary of State).........................     6
The Honorable Richard S. Williamson, Partner, Winston & Strawn 
  LLP (former Special Envoy to Sudan and Ambassador to the U.N. 
  Commission on Human Rights)....................................    13
Mr. John Prendergast, Co-founder, Enough Project.................    27

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Roger P. Winter: Prepared statement..........................    10
The Honorable Richard S. Williamson: Prepared statement..........    16
Mr. John Prendergast: Prepared statement.........................    30

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Statement.............................    58


   SUDAN: U.S. POLICY AND IMPLEMENTATION OF THE COMPREHENSIVE PEACE 
                               AGREEMENT

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                  House of Representatives,
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 6:20 p.m., in 
room 2200, Rayburn House Office Building, Hon. Donald Payne 
(chairman of the subcommittee) presiding.
    Mr. Payne. Let me first of all express my appreciation for 
all of you who have so patiently waited. It shows how important 
and how much interest there is in Sudan and the United States 
policy implementations of the Comprehensive Peace Agreement, 
which is the subject for this hearing today.
    As you know, there was a chemical situation in the 
Longworth Building and, therefore, not allowing you to go in. 
So we fortunately were able to get here, but we don't have 
everything that we would normally have.
    However, we will move forward. Let me first of all, welcome 
all of you here to this very important and timely hearing on 
Sudan. Let me also express my deep appreciation to the 
witnesses, who are certainly among the most knowledgeable 
people on Sudan. Friends of Sudan, this coming Friday marks the 
fourth anniversary of the untimely death our good friend, the 
late der John Garang.
    Let us also remember a number of other good friends who 
died on that crash, including a Commander Ali.
    Despite the many efforts made over the years to bring about 
a just and lasting peace in Sudan, the people of Sudan continue 
to suffer under the brutal dictatorship of the NCP government. 
The people of Sudan and the international community sincerely 
hoped that the signing of the Comprehensive Peace Agreement 
would bring about the much desired goal of peace and security. 
The hope and expectations of the Sudanese have been crushed 
repeatedly by a regime at war with its own people. It was just 
1 year ago that the NCP militia burned the town of Abyei.
    For some observers and U.S. policy critics, the U.S. policy 
is too focused on punitive measures they say. The fact of the 
matter is if one looks closely at our policy over the past two 
decades, the U.S. has never disengaged in its activities. That 
is why we have had more special envoys appointed to Sudan than 
any other country in Africa. In the last 5 years alone we have 
had five different special envoys to Sudan.
    For those who pushed for a policy of appeasement, believing 
that there are some moderates within the NIF government, it has 
been proven wrong many times. It is important that we don't 
confuse a policy of appeasement with that of engagement. 
Moreover, a policy of engagement without pressure will not 
work.
    During the 21-year civil war in South Sudan, the United 
States provided humanitarian assistance but also maintained a 
relationship with successive governments in Sudan. We are 
helping the people of Darfur, yet we have failed to end their 
suffering. We continue to push for a peace agreement in Darfur, 
yet we have ignored the plight of the 2 million displaced. In 
fact, the United Nations officials and some U.S. officials are 
saying that, since fewer people are being killed now, 
conditions have improved; there is no longer genocide.
    In Rwanda, an estimated 1 million people died in less than 
100 days, 15 years ago. We did not even want to call that 
genocide by its rightful name, let alone intervene to end it. 
And we all remember that and those of us--Mr. Smith and others 
that were on the committee--agonized during that period. I said 
a few years ago, if Rwanda was a black mark on our conscious, 
Darfur is a cancer that will destroy the moral fiber of our 
society.
    Unfortunately, we have some people ready to embrace the 
same criminals and killers who committed these atrocities in 
Darfur, South Sudan and other parts of the country. In fact, a 
man who led the NCP delegation to the CPA conference here in 
Washington last month is the same man who was not allowed to 
enter the United States for many years for security reasons. He 
is also the same man who engaged and helped transport the 
terrorists who were engaged in the assassination attempt of 
Egyptian President Hosni Mubarak. He had the privilege to come 
to the United States last month.
    The current regime only responds to real pressure. The 
Clinton and Bush administrations imposed comprehensive economic 
and trade sanctions over the past decade. The impact of these 
sanctions are mixed. But the Government of Sudan has survived 
years of sanctions imposed by the United States and the United 
Nations.
    However, this does not mean the sanctions did not yield 
positive results. I strongly believe that the NCP is incapable 
of changing its ideology and behavior. A regime change in 
Khartoum could bring a swift end to the crisis in Darfur, help 
implement the North-South Agreement and then the regime support 
to extremist terrorist groups.
    Another important measure we should take is the 
strengthening of the Sudanese People's Liberation Army, the 
SPLA. The Government of South Sudan is a staunch ally of the 
United States. The SPLA is a formidable force. Strengthening 
the SPLA could serve as a guarantor for peace in Sudan and the 
region. The SPLA is strong but requires support, an air defense 
system, and air power.
    Moreover, we should help and strengthen other democratic 
forces in Sudan. Most important, we must not ignore the 
importance of accountability to a just and lasting peace. 
Without justice, there is no peace.
    I welcome our distinguished panel, Roger Winter, Richard 
Williamson, John Prendergast and Pa'gan Amum Okiech, and thank 
them for joining us today, especially Mr. Okeich for travelling 
all the way from Sudan to be at this hearing.
    I will dispense from reading of the bios because of time, 
and secondly, they are not here. They are at the other site. 
So, with that, I will now turn it over to our ranking member, 
Mr. Smith, for an opening statement.
    Mr. Smith. Thank you, Mr. Chairman, for calling this very 
important hearing on the critical and timely issue of the Sudan 
Comprehensive Peace Agreement. We are again at a very sensitive 
period in the implementation of this agreement of peace. Not 
only in the north and south of the country, but also in Darfur 
and throughout the region depends on this success. The stakes 
in having a clear and coordinated U.S. policy with respect to 
Sudan could not be higher.
    We are dealing with a regime that has been in power 
following a coup d'etat in Khartoum now for 20 years. And we 
are threatened with the possible unraveling of the CPA signed 
in 2005 in a war in which some 2 million Sudanese were brutally 
killed and 4 million displaced in the south.
    Following that aggression, General Omar Hassan Bashir 
turned his wrath on the innocent people of Darfur and has 
inflicted some 300,000 to 450,000 deaths and displaced another 
3 million from their homes. Just last evening, I am happy to 
say, the House unanimously passed a resolution recognizing the 
5th year since the declaration by the United States Congress of 
genocide in Darfur. And, of course, it was bipartisan, and it 
was unanimous.
    Mr. Chairman, as you know, I met with President Bashir 
personally in Khartoum. His attitude was incredibly cold, 
harsh, and calculating. And his only concern, only concern in 
an almost 2-hour meeting, was in pressuring the United States 
to lift the sanctions.
    I asked him, Mr. President, when was the last time--let me 
correct that--when was the first time you visited the camps in 
Darfur and saw the unspeakable suffering that people were 
enduring as a result of your enabling of the Janjaweed?
    I have also met the deeply grieved refugees in Mukjar and 
Kalma camps. And they desperately need the United States to 
play a leadership role in rescuing them from their tragic 
situation. Therefore, we urgently need an informed coherent 
strategy to motivate the parties to honor their respective 
obligations and to implement the CPA. That strategy must be in 
the context of a border policy with respect to increasing the 
capacity of the Government of South Sudan in anticipation of 
the 2011 referendum.
    I and others here in Congress are actually awaiting that 
strategy from the administration, and hopefully soon they will 
be here to testify in open meeting to give us that information. 
It is also apparent that we cannot resolve the complex 
situation of the Sudan alone. China is recognized as the only 
government capable of exerting meaningful influence over the 
regime in Khartoum. Beijing has invested more than $10 billion 
in Sudan and imports between 60 and 70 percent of Sudan's total 
oil production, is engaging oil exploration in Sudan, and is 
Sudan's most prominent and most important economic trading 
power. And yet China has failed to use its economic and 
diplomatic leverage with Sudan to compel the regime to abandon 
its genocidal policy in Darfur or to take meaningful steps to 
implement the CPA.
    As a matter of fact, it has been complicit; it has been the 
enabler in chief of genocide. And this week, I am sorry to say, 
at least it was in public if they did, as U.S. officials met 
with the Beijing representatives discussing monetary issues and 
economic issues, where was the discussion on Darfur and what 
China ought to be doing and could be doing, even this late in 
the game, if it wanted to mitigate some of the misery that they 
have had a hand in fomenting?
    Other countries and China in particular must receive a 
clear signal from the United States, however, that peace in 
Sudan is a priority. And again, I think we missed an 
opportunity again this week to clearly and unambiguously lay 
that before them.
    The views of our distinguished witnesses with us today, and 
they are truly distinguished witnesses, all of whom who know 
intimately the problems and have very viable solutions to 
recommend; they hopefully will be listened to not just by this 
committee but also by State Department and all players as they 
are involved with this important issue.
    So I thank you again, Mr. Chairman. I join you in 
apologizing to our distinguished panel and all here for this 
delay, but delay is not denial in this hearing, and I thank for 
your leadership, and we will go on.
    Mr. Payne. Thank you very much.
    Because of the lateness of the hour, I would ask other 
members who have opening statements if they would submit it for 
the record, without objection.
    And because of the lateness of the hour, we could then move 
into our first witness, who we would ask if, under the Rules of 
the House, foreign participants in many instances or 
representatives of another government or U.N. technically are 
briefing us. So the only difference is that this is--we are 
being briefed so that we are in the Rules of the House. 
Everything else will be the same.
    So at this time, I would ask our first witness, Pa'gan Amum 
Okiech if he would come forward and we will hear his testimony.
    Mr. Okiech, I get better as the meeting goes on.[Discussion 
off record.]
    Mr. Payne. Now the hearing will officially come to order. 
Remember, that was a briefing, just for the record again.
    And we will call the witnesses, please: Mr. Roger Winter, 
Mr. John Prendergast, and Mr. Ambassador Williamson.
    As they come forward, and they are taking their seats, I 
will just give you a little background about each one.
    Our first witness will be Mr. Roger Winter. Mr. Winter 
began work in Sudan in 1981. He served as a special 
representative on Sudan. He was a Deputy Secretary of State 
negotiator in Abuja on the failed Darfur peace agreement. He 
did work hard on that, though.
    Mr. Winter is also former assistant administrator of USAID, 
where he was a negotiator on the Comprehensive Peace Agreement. 
For over 20 years, Mr. Winter served as an executive director 
of the nonprofit U.S. Committee for Refugee Work in Sudan. And 
Mr. Winter certainly was one of the most renowned and admired 
experts on work with refugees. And the work that he did with 
the NGOs for those 20 years helped save the lives of many, many 
people even before he entered the government.
    So we appreciate you and all that you have done.
    Our second witness will be Ambassador Richard S. 
Williamson, who is a partner in the international law firm of 
Winston & Strawn LLP. Ambassador Williamson has a wide range of 
government experience. He recently completed an assignment as 
the President's special envoy to Sudan. Earlier, he served in 
the Reagan White House as a special assistant to the President 
and deputy to the chief of staff and then on the White House 
senior staff as assistant to the President for 
intergovernmental affairs.
    His many diplomatic posts have included serving as 
Ambassador to the United Nations office in Vienna, Assistant 
Secretary of State for International Organization Affairs, 
Ambassador to the United Nations for Special Political Affairs, 
and Ambassador to the United Nations Commission on Human 
Rights.
    Ambassador Williamson received his B.A. cum laude from 
Princeton University and his JD from the University of Virginia 
School of Law.
    And, finally, we will have as our witness Mr. John 
Prendergast. Mr. Prendergast is co-founder of the Enough 
Project, an initiative to end genocide and crimes against 
humanity. During the Clinton administration, Mr. Prendergast 
was involved in a number of peace processes in Africa, while he 
directed African Affairs at the National Security Council and 
special envoy at the Department of State.
    He has authored eight books on Africa, including ``Not on 
My Watch,'' a New York Times bestseller that he co-authored 
with Don Cheadle. The co-authored work was named the NAACP 
nonfiction book of the year.
    With NBA stars Tracy McGrady and Derek Fisher, he co-
founded the Darfur Dream Team Sisters Schools Program, which 
connects schools in the United States with schools in Darfur 
and refugee camps. And these NBA stars are the prime movers of 
that movement.
    He also helped create the Raise Hope for Congo campaign 
aimed at ending violence against women and girls in the Congo.
    Mr. Prendergast travels regularly to African war zones on 
fact-finding missions, peace-making initiatives, and awareness-
raising trips. And he has been in Vogue--what was that 
magazine? Vanity Fair. But will soon be seen, I believe, on 
``60 Minutes,'' is it, Mr. Prendergast? Doing a ``60 Minutes,'' 
which will--he might mention to us when it will air.
    So he certainly is a person that we have a lot of respect 
for. He has done fantastic work involving high-profile people 
to help to raise awareness, which is always very helpful in 
issues like this.
    Mr. Winter?

STATEMENT OF MR. ROGER P. WINTER (FORMER UNITED STATES SPECIAL 
     REPRESENTATIVE ON SUDAN TO DEPUTY SECRETARY OF STATE)

    Mr. Winter. Yes, sir. Thank you both for having me here 
today. Since the statement has been submitted for the record, I 
won't go through it all. I would like to make about five 
points, primarily about the South.
    First, I want to point out, although I think both of you 
know, who it is we are negotiating with when we negotiate with 
this National Congress Party team.
    All of these men have worked for Bashir since the coup in 
1989. All of them have had dealings with American special 
envoys, however many that total of envoys has been. They know 
us very well. They are used to getting away with murder, 
because they have been able to do it with us over a long period 
of time.
    The team that was coming here was going to be led by Salah 
Gosh, at one point. And then it was decided that he is too much 
of a character, problematic, and he was set aside. The next one 
that was going to lead the team was Nafie Ali Nafie. Nafie Ali 
Nafie was the intelligence and security chief for the 
government in Khartoum at the time that Osama bin Laden got his 
start in Sudan. And we know what the consequences of that are. 
Well, they set him aside, and he didn't come as the leader of 
that team.
    So we wound up with Ghazi, Ghazi Saladeen. Now, Ghazi 
Saladeen is a very slick character. I know him quite well 
because we dealt with him a great deal during the Nivasha 
negotiations. He has a terrible record that wasn't sufficient 
to bounce him from leading the team that came here.
    I want to tell you just a quick story of my personal 
experience with him. When we were, at the behest of former 
Senator Jack Danforth, who was then the special envoy, in the 
fall of 2001 I was, in October and November and December, along 
with another gentleman from the State Department, left behind 
to work out the beginnings of what was going to be the process 
the U.S. engaged in that became the CPA. And, at a certain 
point, we got reports about a substantial number of killings 
within the Nuba Mountains in which we had negotiated a cease-
fire agreement.
    So the two of us Americans went to see Ghazi, because he 
was the point person for President Bashir at the time. We went 
to Ghazi and we explained to him that we had reports that 22 
men had been executed in the Nuba Mountains because of 
suspected sympathies with the SPLM.
    We presented the information we had to Ghazi. He sat there 
for a moment. He stroked his beard. And he said, ``It is not a 
problem.'' We said, ``What do you mean it is not a problem? 
There are 22 dead men.'' He said, ``It is not a problem. We 
have agreed with the Americans that we will have a cease-fire 
with the SPLA in the Nuba Mountains. That hasn't changed. What 
has been killed are 22 civilians. So it is not a problem.''
    This is the kind of splitting and misuse of words that 
these guys engage in with regularity. I say they are used to 
getting away with murder, and they continue to do so.
    The point I want to make is, with the kind of track record 
of people that the NCP has in its leadership, it is important 
to keep in mind that nobody in Pa'gan Amum's SPLM has such a 
track record. There is no track record of killing people like 
that, executing people like that. There have been things that 
have happened during the war, but that is not the kind of thing 
that the SPLM leadership tolerates or agrees with in any way, 
shape, or form.
    Now, the problem I think we all see right now with the 
process that is going on under our special envoy is not 
engagement per se. We have to engage with Khartoum. It is the 
only way to at least try to make progress. The problem is we 
seem to be making love to Khartoum. That is the problem.
    What we see is an uneven process, an unequal process, in 
which we focus most of our attention on the National Congress 
Party. And there are very short times in which we actually 
engage with the SPLM or the Government of Southern Sudan in 
Juba. And so it is a very unequal thing.
    And the problem is that we seem to have a proliferation of 
carrots and potential carrots that we are prepared to offer to 
Khartoum, but where are the sticks? Where are the sticks?
    What we know and what you have heard a little earlier in 
this testimony is my belief that I can document that the 
National Congress Party, since this whole peace process began, 
has a perfect record: They have violated consistently 100 
percent of the time the agreements that they have agreed to.
    And so, carrots are fine when there is proof of actual 
change of behavior. But sticks are also called for when they 
make an agreement with us or they make an agreement with the 
SPLM or any other reputable party and then they violate it. If 
there are no sticks, there will be no successful peace process. 
And I think that is a flaw that we are seeing in the process as 
it is moving forward right now.
    It is also the case that the way that the process is moving 
forward, it is under wraps. It is almost secretive. We don't 
actually know clearly what is happening, what agreements are 
being made. It is not in the public view.
    And so, I think these are the kinds of problems that I see 
with the process right now.
    Now, there is a lot of talk about what the future of South 
Sudan would be. And there is, in the CPA itself, the issue of 
unity and the issue of possible separation. I think it is 
totally clear that there is no possibility any longer for unity 
if, in fact, the people of South Sudan actually get their 
choice, as they have been promised.
    I think Bashir and the National Congress Party have killed 
any possibility of unity. And the fact is, we only have perhaps 
18 months left before the referendum, and there isn't time to 
make up for the misbehavior that they have already engaged in.
    So there are, in my view, only two options that are 
acceptable to the people of South Sudan.
    One is, by a free and fair referendum, they opt to become 
an independent state. If Khartoum continues to obstruct, as, 
for example, the National Congress Party in the national 
legislature has done, saying they will not enact a referendum 
law to empower and enable a referendum to actually happen, if 
they continue to do that kind of obstruction, I think what we 
are likely to see as the alternative to a free and fair 
election is a unilateral declaration of independence by the 
South.
    I hope it doesn't come to that. I hope the process actually 
works. But I don't think we have any reason to believe the NCP 
will follow through on the referendum process.
    I would like to speak to the issue of the problems that are 
often cited and discussed in diplomatic circles, the problems 
of the possibility that if, in fact, the South chooses, by 
whatever means, for separation, that it will constitute a 
failed state.
    And that is put before us as a sort of threat, a reason to 
not pursue with vigor a free and fair referendum. But who 
really is the failed state? I want to talk about that for a 
moment.
    Now, in the case of the South, we have a government that 
has existed Pa'gan said 4 years, I count 55 months or so. In 
the 20 years I was the head of the U.S. Committee for Refugees, 
I was involved in every human rights and humanitarian disaster 
in the world. I did the same thing as the Humanitarian 
Assistant Administrator for USAID.
    There was, coming into 2004 and 2005, no more destroyed 
place in the entire world, I am telling you--that is what my 
job was for 25 years or so, is to know and understand--South 
Sudan was the most destroyed place in the world. And what you 
have in the South right now is terribly imperfect, but it is an 
improvement drastically of services to people, health services, 
education services, and a whole variety of things that they 
desperately need to reconstruct Southern society.
    So, if you have a government that genuinely intends to 
develop its population, then it seems to me, when we look at 
issues of weak governance, issues of corruption, issues of 
civil violence, and we contrast that with 3 million dead 
between the South and Darfur in war caused by Khartoum, we look 
at the corruption that Khartoum itself has engaged in--it 
controls virtually the entire economy in northern Sudan, at 
this point. And if we look at the issue of civil violence and 
recognize that much of the civil violence that occurs in the 
South, as Pa'gan Amum has indicated, is actually fostered and 
stimulated by Khartoum, then what, really, are we worrying 
about in terms of the South being a failed state?
    Yes, it has some corruption. Yes, it has some weaknesses in 
governments. Yes, there is some civil violence. None of those 
things are things that they desire. But the deaths of large 
numbers of people are something Khartoum has done. The 
corruption that has given them control of the economy of the 
north--all of those kinds of things are the policy of the 
National Congress Party.
    So there is a major difference. There is no comparison 
whatsoever between the weaknesses that there may exist in the 
Government of Southern Sudan and the policy of destruction and 
death that has been the way Khartoum has actually functioned. 
That is very important.
    They have come a long way in the South in 55 months from 
being the most destroyed country in the world. So don't let 
people sell you a bill of goods that this is a government and a 
society that can't make it. It can, and it is already better 
than the government that exists in Khartoum.
    Lastly, I would like to say that the SPLM, the people of 
the SPLM are democrats. I don't mean Democrats versus 
Republicans. I mean democrats in the sense that they wish to 
have a democratic country. They respect the kind of approach to 
governance that is taken in the United States of America.
    And so, the point I want to make is that the kind of 
weaknesses that exist in the Government of South Sudan are 
weaknesses that can be overcome. And, therefore, what I would 
suggest--and I really suggest this Congress push on this--that, 
in the 18 months remaining, that what we do is embrace the 
South, we partner with them, we come alongside them, we help 
them overcome the weaknesses that do exist in the government.
    They want that to happen, and I am suggesting that we 
should want to have that to happen, too. Because, ultimately, 
fostering democracy and fostering the development of the civil 
population are in our interests. That is what we should do, and 
not worry too much about the phony stories that we hear about 
with regularity.
    Thank you.
    [The prepared statement of Mr. Winter 
follows:]<greek-l>Roger Winter deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much.
    Ambassador Williamson?

  STATEMENT OF THE HONORABLE RICHARD S. WILLIAMSON, PARTNER, 
    WINSTON & STRAWN LLP (FORMER SPECIAL ENVOY TO SUDAN AND 
       AMBASSADOR TO THE U.N. COMMISSION ON HUMAN RIGHTS)

    Ambassador Williamson. Thank you, Mr. Chairman and the 
other members of the committee. I also want to thank Chairman 
Payne and Congressman Smith for your deep interest in this 
issue and your support for me during my tenure as the special 
envoy.
    I also want to take this opportunity to thank Pa'gan Amum, 
Roger, and John for what they have done; and note, since this 
doesn't seem to be necessarily the view of the government at 
all times, that during my tenure the fact that the advocacy 
community, the human rights community, the humanitarian 
community were deeply involved, knowledgeable, and sometimes, 
to my regret, critical of me was a good thing. And the 
administration should be open to a full dialogue with these 
communities, who are knowledgeable, who bring different 
perspectives and different experiences, because it improves the 
process, just like a free and open dialogue with Members of 
Congress.
    The long North-South war was horrific. I will not go 
through the details of my written statement, which will be 
accepted in the record. But let me just touch on a few points.
    The North-South war was a great tragedy, and it was 
prosecuted with brutality. The United States worked with focus 
to try to advance the Comprehensive Peace Agreement. Roger 
Winter and Charlie Snyder and others, with Special Envoy 
Danforth, did a heroic job, and it is a great achievement.
    But, like all agreements to end long, brutal, messy wars, 
it is imperfect. The 6-year implementation stage meant that 
both sides have plenty of opportunity to try to change facts on 
the ground to renegotiate aspects of it. And we have seen work 
that has been done, especially by the north, that has been 
destructive in that regard.
    The U.S. also has an interest in Darfur, and these are 
linked. If the CPA collapses, it is my opinion that there will 
be no opportunity for progress in Darfur. The CPA has several 
stress points, and the fundamental question is, does Khartoum 
intend to implement it?
    We recently had the Permanent Arbitration Tribunal in The 
Hague's decision on the Abyei border. This was required because 
Khartoum did not live up to its commitment to accept the 
decision of the Abyei Border Commission. That being what it is, 
it is progress that an Abyei board of demarcation has been 
made, and both Khartoum and Juba have expressed their 
willingness to follow it.
    But there are problems that have not been fulfilled with 
respect to CPA implementation dealing with disarming militia, 
redeploying Sudan Armed Forces, the final border beyond Abyei, 
laws for the environment to be such that you can have a free 
and fair election in 2010, including laws to protect the right 
to assemble, and media protection laws for the referendum.
    The show-stopper, however, I would suggest, is the 
election, and we should be gravely concerned. That election was 
to take place in 2009. It has already been postponed to April 
2010. And the preparations are not proceeding apace to be able 
to have a free and fair election by that time. Most notably, 
the census, which was delayed and delayed and delayed again, 
came out with results that are questionable and have not been 
accepted by all the parties.
    We also should be concerned about the increase in South-
South ethnic violence. And there are reasons to believe that 
some of this is being encouraged by forces in the north. This 
can make not only an election impossible, but further progress, 
which is needed for the people of Southern Sudan.
    Let me note that the Government of Southern Sudan is not 
blameless. They should work harder to spread the oil benefits 
by improving education and health, and certainly should take 
more steps on anti-corruption. Both sides should deal with the 
pipeline and refinery fee issues for post-2009.
    But these concerns, to me, just emphasize the need for the 
United States to show greater effectiveness and commitment to 
increase the capacity of the South. A stronger Southern Sudan 
will help the likelihood of CPA full implementation. And this 
means assisting in developing management capacity; economic 
development, including agricultural development; 
infrastructure; and, yes, also military.
    I believed while I was special envoy and continue to 
believe that assisting Southern Sudan to neutralize the aerial 
advantage of the north would be an appropriate and beneficial 
step.
    Again, the big issue is Khartoum's intent. And we must 
accept that, for whatever reason, the actions of the U.S. 
Government in recent months have strengthened Omar Bashir.
    Engagement for engagement's sake will not work. The NCP 
knows what it needs to do. It has made the conscious decision 
not to fully follow up on commitments. And the questions I 
would urge the committee to consider or to press the 
administration on: Is there a strategy? Is there contingency 
planning? What of our moral and political commitment to the 
people of Southern Sudan and Darfur? What is the return of our 
investment?
    I would mention to the committee that the U.S. taxpayers 
pay almost $1 billion a year in humanitarian assistance. The 
Government of Sudan is a wealthy government because of oil. 
Close to $9 billion of oil exports a year. And one humanitarian 
expert estimated to me in Darfur, while we are giving $1 
billion a year, the American taxpayers, the Government of 
Khartoum has given approximately $30 million, total, to help 
their own people. As one cynic said to me, how can they do this 
to their own people? They don't consider them ``their own 
people.''
    What about our national interest of regional stability? I 
think it was most shameful that, when the 13 humanitarian 
organizations were kicked out, we did not raise our voice 
louder or take actions against that breach of international 
humanitarian law; that we signed a two-page agreement that can 
be interpreted as accepting their right to do that.
    No one who knows what is going on in Darfur would make the 
assertion today that they have the same level of humanitarian 
assistance that they did before the March 5th action to expel 
those humanitarian groups. Yet that was the promise when we 
signed that agreement. What are we doing to make some 
accountability?
    I believe the President, the Vice President, the U.N. 
Ambassador care deeply and are committed. But the time is fast 
approaching where those who believe in helping the Darfuris and 
helping the Southern Sudanese cannot in good conscience remain 
silent. Like others, I hope and pray for progress, but real 
progress is required, not just talking the talk.
    Thank you.
    [The prepared statement of Mr. Williamson 
follows:]<greek-l>Richard Williamson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Thank you very much.
    Mr. Prendergast?

 STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, ENOUGH PROJECT

    Mr. Prendergast. Thank you, Congressmen Payne and Smith and 
Royce, for your unyielding commitment to peace and democracy in 
Sudan. And, unfortunately, my colleagues are clearly unwilling 
to speak their mind so that responsibility falls to me.
    It is interesting, here on this panel, that we have, I 
think, around 60 years of combined experience working on Sudan, 
negotiating with the Sudanese Government. Of course, I am the 
baby of the bunch. And up on the dais there, you three have 50 
to 60 years of dealing with this regime in Sudan and experience 
with that. So I hope people will listen, you know, to us 
dinosaurs. Because, strangely, from many different directions 
all six of us have come to very similar conclusions about what 
needs to be done, and it is at great variance to the existing 
path that the current administration is taking.
    So I want to reinforce the consensus that I think exists in 
this room by saying very clearly that sustained pressure, 
leveraged by meaningful and focused sticks, is the principal 
tool that has moved the National Congress Party over the last 
20 years to change its behavior during these long years of its 
authoritarian rule. So this substantial track record of 
empirical evidence of the value of real pressure makes the 
direction of U.S. diplomacy presently all the more 
questionable.
    In fact, Special Envoy Gration has stated on the record 
that<greek-l>, quote, deg. ``right now we are looking at 
carrots and looking proactively to use them.'' That is the 
wrong message to be sending to the NCP today. They will eat 
these carrots and continue with the deadly status quo.
    The voices of Darfurians, parenthetically, couldn't be 
represented in this room today up on the table, but we have 
received some very interesting feedback from Darfurians in the 
camps, in the refugee camps that Congressman Royce and 
Congressman Payne and I both have been able to visit together, 
and Congressman Smith has been to himself. And they were 
uniformly alarmed at Special Envoy Gration's visit and his 
message.
    He lectured them to be more positive about the future and 
stop complaining about the past. He lectured them about why 
they won't handle or don't handle the land tenure issue 
themselves. You know, most of them have lost their land, as 
Khartoum has pushed settlers into these villages that have been 
burned and destroyed and ethnically cleansed. So he strangely 
was telling them, why don't they deal with these problems 
themselves. He lectured them that they should start going home 
to their villages now without any security. And he said that 
they shouldn't wait to be saved, which was, of course, more of 
a jab to the coalition efforts back here in the United States, 
who has made repeated comments about the unhelpful nature of 
the anti-genocide movement here in the United States.
    These are disturbing messages, I think, to be sending 
people who have been on the receiving end of a genocide that 
continues by other means. So that is the critique, you know. 
And any one of us six people could go on all afternoon, but we 
need a constructive alternative, you know, to present to this 
present path.
    And I think in the context of the policy review that is 
very contentiously unfolding now today within the 
administration, the U.S. should spell out very clear goals. I 
think we need to be clear about five things.
    First, we need U.S. leadership in constructing a more 
effective Darfur peace process, using as a model the process 
that the previous administration was able to craft, and lead an 
international effort in bringing those peace talks, those long 
and protracted and difficult peace talks, complicated peace 
talks, to a conclusion.
    And the U.S. needs to play a lead role in this. We cannot 
continue to defer to a process that has clearly ground to a 
halt. And we need to lead in a way that not only puts us in the 
forefront of acting, but also acting multilaterally, with a 
support structure that involves and includes and builds 
international leverage and expertise and support--again, the 
same thing that Roger and company did in 2003, 2004, and 2005 
to get the CPA negotiated.
    Secondly, we need U.S. leadership in supporting the 
implementation of the CPA. Now, it is very encouraging that 
this special envoy has refocused the interest of the United 
States Government on implementing the agreement that it helped 
to negotiate. But negotiating the implementation of a deal that 
has already been struck is different than what we ought to be 
doing, which is constructing an international coalition to 
pressure the parties to implement what they have already 
agreed. That is a very different paradigm. And I think we have 
gone down the wrong road by trying to negotiate every aspect of 
implementing an agreement that has already been reached.
    We need to structure clear penalties for non-implementation 
and then rally international support even if, yes, China and 
Russia will be opposed to us in the Security Council, but we 
need to rally international support for some consequence for 
non-implementation. That is how we lead, that is how this 
agreement might have a chance of being implemented.
    Third, we need U.S. leadership in supporting the democratic 
transformation of Sudan, by supporting the electoral process of 
course, but also by providing institutional support to 
opposition parties, building their capacity, and to civil 
society organizations and to the Government of Southern Sudan 
in building its abilities and capacities to govern people 
effectively in the South.
    Fourth, we need U.S. leadership, of course, as just to 
reinforce all my colleagues and everything anyone has said, and 
particularly what Pa'gan Amum said. We need U.S. leadership in 
preparation for the South's referendum in 2011, which will be a 
make-or-break process for the future, not just in the South but 
in the entire country.
    And, fifth, we need U.S. leadership in support of 
accountability. The ICC indictment of President Bashir is a 
crucial opportunity to begin the process of ending this cycle 
of impunity that has fueled the crimes against humanity that we 
have seen throughout the South and in Darfur repeated over and 
over again.
    There is a very troubling tendency, I believe, of our 
current special envoy to focus on the future to the exclusion 
of the past. That is a code word that is heard very clearly in 
Khartoum, quite frankly. And ignoring what has happened in 
Darfur and what has happened in the South and sweeping it under 
the rug will ensure the return of these kinds of crimes.
    The essential word that I would repeat throughout these 
goals is U.S. leadership--multilaterally and, when necessary, 
unilaterally. That will be the enormously influential 
ingredient in a successful transformation, I think, to peace 
and democracy in Sudan.
    But here is the bottom line, and I want to reinforce it. 
Success will require greater leverage that what presently 
exists in Sudan today and the international community. The 
debate that is going on now within the U.S. Government rests in 
part, in large part, on the degree to which incentives or 
pressures ought to be favored instruments for changing the 
behavior of the regime in Khartoum, the Darfur rebels, and the 
GOSS and SPLM.
    It is the view, I think, unanimously of this panel and you 
three congressmen and the activist organizations that we stay 
all in close contact with and, in some cases, represent that 
the way forward should involve deeper diplomatic engagement. No 
one disagrees with that. So it isn't like those that are 
supporting pressure are against engagement. We all want deeper 
U.S. diplomatic engagement in Sudan. But it is engagement that 
is rooted in multilateral pressures and the credible threat of 
significant consequences for policies or actions by the 
Sudanese parties that undermine peace efforts and lead to 
worsening humanitarian conditions.
    I think if the U.S. appears more interested in negotiating 
the implementation of the CPA, again, to reinforce that point, 
instead of marshalling the international coalition to pressure 
the parties to implement the agreement, that will send a 
dangerous signal that it is all for sale, that it can all be 
rewritten, like the Ethiopia-Eritrea agreement.
    So, ultimately, success will require the construction of 
credible and effective processes that allow for the achievement 
of U.S. goals, that requires us to get out in front of this 
glaring failure of building a process in Darfur, and construct, 
out of the existing elements, a new revitalized process that 
has a real chance of ending Darfur's crisis.
    And we need to intensify these efforts on the CPA and back 
these efforts with the construction of a clear, multilateral 
consequence for violations or non-implementations of the deal. 
That is my message; I think that is all of our messages. There 
must be consequences for committing atrocities like genocide 
and what kinds of crimes occurred in the South and for anyone 
who undermines peace. An incentive-only strategy, like the one 
that is being envisioned, will guarantee failure.
    Thank you.
    [The prepared statement of Mr. Prendergast 
follows:]<greek-l>John Prendergast deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Payne. Let me thank the three of you very much for very 
thorough testimony.
    And I understand that Ambassador Williamson will have to 
leave in 5 or 10 minutes or so. So what I might do is direct 
maybe a question to him and then ask our other two members if 
they have a question specifically for him, and then we will ask 
questions to the other witnesses.
    But I just would certainly like to make clear that it is an 
attitudinal problem of the Government of Khartoum. I have heard 
people say, ``Well, Congressman Payne, you bring race in, and 
members of the Government of Khartoum are blacker than you in 
complexion, and therefore how can you say race is an issue?'' 
And it is certainly not race, it is attitude, a feeling of 
superiority. It is sort of, ``We are the chosen people in 
Khartoum, and those Darfurians came up from central Africa some 
time. And they are different, of course. We are certainly 
different from the ethnic groups in the South.''
    And so the problem, as I said to the chairman of the League 
of Arab States, is that there happens to be a feeling of 
superiority that, to me, really drives this deformed government 
in Khartoum. Because if you feel that you are better than your 
subjects, so to speak, then you will never feel that they have 
a right to justice. It is just that simple. And until that 
situation changes, the government's attitude won't change, so 
we will just have to do things, maybe, to change the 
government.
    The other thing--I do agree that it is convenient for the 
government to allow the world to feed their people, as it has 
been mentioned. Year-in and year-out, billions of dollars go. 
What is the incentive for bringing the Sudanese back to their 
lands and having to rebuild and having to support the people in 
Darfur and in other areas in dispute? And so, there is very 
little incentive for the Government of Sudan to come up with a 
solution. And that is sad, because we really have a tough job 
in front of us.
    But let me just ask, Ambassador at this point in time, what 
suggestions would you make--not saying if you were still the 
ambassador or the special envoy, but let me just say, what 
would you do at this time? What would be your major points?
    And, secondly, I would like to say that I really 
appreciated the cooperation that you showed and afforded me on 
my travels in Sudan when we were in places at the same time, 
where the administration didn't want me and felt you shouldn't 
be there with me, but we just happened to be there. And you 
welcomed me just in open arms, which I really appreciated.
    And also, let me say, Mr. Winter, when you gave truthful 
testimony, in spite of your position that, you know, there was 
a feeling that maybe you shouldn't have told the whole truth 
and nothing but the truth. So I really commend both of you.
    So, Ambassador, could you just maybe give us some points 
before you have to leave? And then I will turn it over to my 
colleagues.
    Ambassador Williamson. Thank you. And I apologize. Based on 
the earlier timing, I made commitments back home in Chicago 
tomorrow morning, and the last flight will require me to leave. 
So, my apologies.
    Second, I would just like to comment, if I could, Mr. 
Chairman, on your analysis, which I think has truth to it, with 
respect to a feeling of superiority.
    However, I would subscribe to the views expressed by 
Professor Benjamin Valentino from Dartmouth in his book, ``Mass 
Murder and Genocide in the 20th Century,'' in which he 
concludes that, while often there have been arenas of ethnic 
clashes and ethnic differences, ultimately those differences 
had been exploited in the 20th century by powerful people 
dealing with their most difficult problem: To stay in power. 
And that at least one perspective about the tragedies in the 
South and in Darfur would reflect on Professor Valentino's 
views.
    Second, look, special envoy is a very difficult job. There 
is no simple answer. There is not a simple white hat/black hat 
situation, et cetera. Second, I, based on my exposure, I have 
confidence that the current special envoy is a very decent man. 
So I preface that because it is easier to be a critic on the 
sidelines, as I have seen from when both Roger and John would 
criticize me from time to time.
    Mr. Payne. I did, too.
    Ambassador Williamson. Yes, you did, too, Mr. Chairman. I 
will give you credit, yes. I don't want to leave you out. But, 
as I said earlier, I think that is good for the process, and it 
helped me do a better job.
    I do think the concern is that President Bashir has been 
strengthened, and that will perhaps embolden Khartoum not to 
fully live up to commitments, which has been a pattern in the 
past.
    My view is not dissimilar to the prescription laid out by 
John Prendergast, that you have to accept that change is not 
going to happen just because you are talking. Engagement is not 
a strategy; it is a tactic. And the strategy has to be to 
change the game, because the party knows its self-interests and 
has decided to act in a particular way.
    And experience shows that the offer of incentives alone is 
insufficient to change the incentives. So you must be prepared 
to take other sorts of steps, not only yourself but the others 
who say they care and are committed and concerned, and cannot 
let one or two countries thwart you because their agenda might 
be driven by oil or something else.
    Then I would just go back to the list of items I mentioned 
that I think we can more robust in helping strengthening the 
South. Economically, in management capability, there are some 
very talented people in the South, but it is a relatively small 
group that are trying to do anything. In my written testimony, 
I say take one, two, three, four dozen of the talented people 
and have the United States bring them to our management and 
business schools for 12 months. Help them build systems.
    And, on economic development, while humanitarian aid is 
important, Ameerah Haq, the coordinator of humanitarian 
assistance for the U.N. In Sudan, has said, ``You know, you 
could cut back on that. Let's start to develop their capacity 
for themselves.''
    And, finally, Mr. Chairman, a strong SPLA, a strong 
Southern army, will both help deter abuse from the north now 
and, after 2011, allow the South to be a full partner with the 
north if the decision is unity, and, if it is not unity, allow 
them to prosper as an independent country.
    Thank you, Mr. Chairman.
    Mr. Payne. Thank you very much.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Ambassador Williamson--and let me say, all of you, 
tremendous testimonies. And, you know, George Santayana once 
said that those who don't learn the lessons from the past are 
condemned to repeat them. And all three of you, we have three 
gentlemen who have learned lessons that, if are not heeded by 
the administration and by our new special envoy, I think could 
be, and I think you would agree, absolutely catastrophic in 
terms of what will happen.
    And, you know, Mr. Winter, when you mentioned that 100 
percent of the time the National Congress has not honored its 
commitment--and you certainly were right there. You were part 
of that negotiating team. You received me so well when I went 
there, and I do thank you for that.
    Now, I know you have to leave, Ambassador Williamson, so 
let me just say a couple of things, questions.
    And I just would say for the panel, when Ambassador 
Williamson headed up our delegation to the U.N. Human Rights 
Commission in Geneva, I joined him there for approximately a 
week. And he worked overtime, night and day, to get our 
European friends, some of our African Union friends, and others 
to join in on the resolution. And the pushback, as people were 
being slaughtered, of not doing anything, of looking askance 
was appalling.
    And I am concerned, Mr. Chairman, that there--you know, it 
is almost like compassion fatigue or empathy fatigue that sets 
in. I remember when Mengistu was doing his hard, horrific 
deeds, the second time around, when the second famine occurred, 
people were saying, ``Oh, we have been there. Wasn't that 
resolved? Let's move on, turn the page.'' And we can't have 
that, obviously.
    And I think Pa'gan Amum made some very chilling suggestions 
or observations. He admonished us not to reward the National 
Congress for nothing. But he also said there is an escalation, 
the alarming situation, and actually put a number on it, 79,000 
AK-47s. And we have heard numbers, but I hadn't heard that 
number. Perhaps you all had, but I had not.
    That sounds to me--and when Mr. Winter talks about, you 
know, the free and fair ballot will probably lead to an 
independent state or a declaration, it sounds to me like 
Khartoum is getting ready to begin or initiate new hostilities. 
You know, it seems to me we are asleep at the switch.
    And you put it in a way that couldn't be more dramatic. I 
think our policy is one of making nice with dictatorships, 
whether it be Tehran, Havana, Hanoi, Beijing, name the area, 
even Pyongyang. We talk tough. What are we really doing? But 
here you said we are making love with the Khartoum Government. 
That takes it to a new level, in terms of accommodation and 
appeasement, which I think will have catastrophic results.
    Is it your view on this escalation, Ambassador Williamson--
are you hearing the same things in terms of an arming that 
could very quickly become open hostilities over and above what 
we already see, obviously, in places like Darfur?
    Mr. Williamson. I think there are contingencies being 
planned that, if they are forced into corners, violence could 
be spread that would be devastating.
    And let me also, if I could, sir, comment on your reference 
to the concern of possible empathy fatigue or compassion 
fatigue. I visited refugee camps in Latin America, Asia, 
Africa--not as many as Roger Winter. But I guarantee that most 
people, if they visit those camps today, will not come back and 
say, ``It is not as bad as I thought it would be.'' They would 
say it is horrific, unacceptable, and we must act.
    Mr. Smith. Do I have time for another question or do you 
have to leave?
    Mr. Payne. I need to leave. And we want to give Mr. Royce a 
chance.
    Mr. Royce. I am going to let Ambassador Williamson catch 
his flight. He is going to miss his flight if he doesn't leave. 
And I will just have one question for Mr. Prendergast.
    Ambassador Williamson. Okay, thank you very much.
    Mr. Payne. Thank you.
    Mr. Royce. There was hope that the international arrest 
warrant against the Sudanese President, against Bashir, would 
be the first step toward a pretty aggressive stance against 
Khartoum. That has not happened. And we heard Scott Gration's 
remarks, or at least read them, of his Oslo speech, in which he 
said that Bashir would be held accountable in due time.
    And we have heard that same principle-versus-pragmatism 
arguments when Charles Taylor was escaping his indictment. He 
was living in cushy luxury in Nigeria at the time. And I 
remember those of us that pushed that indictment against the 
countervailing strategy that, basically, it would make a 
political settlement more difficult.
    Now, in point of fact, by getting Charles Taylor in front 
of The Hague, it seems to me that we have gotten stability, 
much more stability in Liberia than we ever would have had had 
we not made an example of him. But, you know, in this case, the 
political settlement argument would seem to be, on the face of 
it, bankrupt just by the fact that there isn't any Darfur peace 
process to protect in this case. So it sort of removes that 
argument.
    But I was just going to ask you--you know, the 
administration has decided it will not make Bashir's arrest 
warrant a priority. In their view, an arrest strategy mode will 
lock them out of negotiations.
    So, talk a little bit about the principle-versus-pragmatism 
argument. Are justice and the end of violence in Sudan mutually 
exclusive, in your view?
    Mr. Prendergast. Yeah, thank you for that thoughtful 
question, Congressman Royce.
    I think we see over and over again people advance the 
argument that justice and peace somehow are incompatible. And I 
have taken now eight trips to Darfur since the genocide began, 
and I cannot recall a single conversation that I have had with 
the Darfuri displaced by the violence either in the IDP camps 
or living in rebel-held towns or living in refugee camps in 
Chad who do not believe that peace is not possible without 
justice. In other words, justice is an essential element of 
peace, because if we don't break this cycle of impunity that we 
always talk about with some measure, some consequence, some 
cost to the commission of genocide, we are going to get more of 
it. It is just human nature. The river will flow in that 
direction.
    So I think we need to maintain that focus on the arrest 
warrant. Congress can be very helpful in enunciating that as a 
very important objective of U.S. policy, accountability and 
justice for what has happened and what is happening in Sudan. 
And we need to, at a minimum, as a step toward seeing that 
arrest warrant executed, at least, at the very least, isolate 
the person who has been indicted by the ICC, President Bashir.
    And remember, before someone can argue to you, ``Well, we 
need to meet with him to be able to forward the peace 
process,'' he was not materially involved in the peace process 
related to the Comprehensive Peace Agreement, the North-South 
peace deal. That was a Vice President Taha-led negotiation with 
a number of people in Khartoum that were instrumental in 
eventually making the decision to sign on the dotted line.
    So I think that, again, using a rigorous study of empirical 
evidence of what this regime moves in response to--and this is 
one heck of a sword of Damocles that we can hold over their 
head to get some modification or moderation in their behavior. 
It is foolish, in fact, diplomatically foolish, to take it off 
the table, as we seem to have taken it off the table 
rhetorically.
    I would simply footnote all that by saying, at the end of 
the day, the Sudan policy review has not yet been finalized. So 
Congress and the activists have a tremendous chance now, at 
this moment, to weigh in with Secretary Clinton, to weigh in 
with Vice President Biden, with Ambassador Rice, all of these 
people who--and the President himself--all these people who, 
during the campaign and in their previous jobs, were strident 
advocates in support of this accountability, were strident 
advocates even in support of military action in Darfur, which 
isn't even what the activists or anyone is asking for.
    We are just asking for principled engagement and pressure 
on this regime. We just want people who have made their careers 
in part on principle to live up to the rhetoric that they 
enunciated during their campaigns, during their tenures in the 
Senate, during their previous positions. And if they did so, I 
think we would get substantial movement in Sudan forward, as we 
all hoped the day after--well, some of us hoped--the day after 
the election in November we would see come to fruition in 
Sudan.
    Mr. Royce. Thank you, John.
    I will yield back, Mr. Chairman.
    Mr. Payne. Thank you.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And I thank Ambassador Williamson in his absence. We were 
in two different meetings on health reform, and I know the 
chairman has been in some of those meetings as well. So thank 
you for your indulgence.
    I just have two quick questions.
    Ambassador Winter, what is your estimation of how many 
people were killed in Sudan over the period of time when the 
genocide was declared?
    Mr. Winter. If you are talking about just Darfur, I think 
the accepted number now is in the range of 400,000.
    Ms. Jackson Lee. And then overall?
    Mr. Winter. We did in 1998 and then updated it subsequently 
using demographers who had retired from USAID, a very careful 
study and a publication that documents about 2\1/2\ million 
people who died during the course of the Southern war. You take 
2\1/2\ million, add 400,000, you are talking about 3 million 
people who didn't need to die but did under the auspices of the 
Khartoum government.
    Ms. Jackson Lee. Mr. Prendergast, do you agree with those 
numbers?
    Mr. Prendergast. Without any question.
    Ms. Jackson Lee. Is the CPA, at this time, July 29, 2009, 
hanging in the balance? And is there any future for the CPA? 
Mr. Winter and then Mr. Prendergast.
    Mr. Winter. I think there is a future for the CPA. The 
question is, what is that future?
    And, from my perspective, the key to everything at this 
point--you weren't here when I said before--is the issue of the 
referendum. There are all kinds of other aspects, and I am not 
making light of them. But, ultimately, at this point in time, 
the difference between future war and future peace, to me, is 
producing and implementing a viable, free and fair referendum.
    It is my view that Khartoum has killed the possibility of 
unity in a free and fair referendum by their behavior. And 
there isn't enough time over the next 18 months to suddenly 
make unity attractive when they have made it so horribly 
unattractive.
    And so, from my perspective, if, in fact, Khartoum 
frustrates the timely implementation of a free and fair 
election, it is very possible that the South will declare 
independence. They would be justified to do it, in my view, 
because they have been following and pursuing the full 
implementation of the CPA, and it is Khartoum that has not.
    Ms. Jackson Lee. I believe that opportunities lost may be 
lost forever. So let me ask this question of both Mr. 
Prendergast--and you were eloquently speaking to Mr. Royce's 
question. I think you partly answered it.
    What can the administration, the United Nations, and maybe 
separately this Congress, since we are one of the three 
branches of government and have been able to characterize over 
the years and act sometimes unilaterally in terms of actions 
that Congress can take, what can we take as we sit here today?
    I will start with Mr. Prendergast first.
    Mr. Prendergast. Well, the big question mark in getting to 
where Roger is talking about getting, to the referendum in 
2011, is what the result will be of the now 6-month long policy 
review of the current administration. And I think if the result 
is that the administration pursues an incentives-only strategy 
with this government in trying to achieve our policy 
objectives, we guarantee failure.
    And so, what the Congress urgently can do now--and we don't 
really even need a 12- or 24- or 36-month plan because there is 
a 1-month plan, there is a 2-week plan, which is weighing in 
very constructively with the principals in the administration 
who will sit around the table at some point in the very near 
future in a National Security Council meeting, and they will 
arbitrate and deliberate over the memo in front of them about 
what U.S. policy should be.
    Ms. Jackson Lee. At the United Nations?
    Mr. Prendergast. At the National Security Council of the 
United States Government. So, James Jones will be there----
    Ms. Jackson Lee. Oh, the National Security Council of the 
U.S.----
    Mr. Prendergast. Exactly. Vice President Biden will be 
there, Secretary Clinton will be there, and Ambassador Rice 
will be there. It hasn't yet risen to that level yet. They have 
been debating this policy now strenuously at the deputies 
level.
    And so we need the people who have been champions of 
Darfur, champions of Southern Sudan throughout their Senate 
careers, throughout their private-sector careers in the case of 
Susan Rice, to be front and center in that meeting, 
representing a policy that I think will potentially be the 
game-changer in whether or not we see peace and stability come 
to Sudan. And that would be a policy that focuses on using a 
balanced collection of carrots and sticks, not an incentives-
only policy, but a collection of carrots and sticks with 
credible, significant consequences for the obstruction of peace 
and for the destruction of human life.
    Ms. Jackson Lee. Mr. Winter?
    Thank you very much, Mr. Prendergast.
    Mr. Winter. I would say that we need to recognize that 
there are significant problems in the South that relate to the 
issues of corruption and weakness in governance and civil 
violence.
    It is time for us to surge, in terms of our involvement in 
the South. I think by increasing, escalating our presence, 
coming side by side with people in the Government of South 
Sudan, for example, to bolster their capacity--I wouldn't send 
them out, like Rich suggested, send them to the United States. 
That is not the point. We need to send our people there so they 
get the on-the-job training, they have an American sitting next 
to them that helps them in terms of improving their financial 
management skills and those kinds of things.
    That surge on our part is something that I think this 
Congress could play a key role in precipitating and, if 
necessary, financing to some degree. I think if we did that, it 
would be a big stabilizer of the situation in the South and 
will actually prevent violence in the long run, and it will 
make them successful.
    This SPLM and this GOSS are fundamentally democrats. They 
want a democratic government. Khartoum is disinterested in any 
such thing. In the South, they want the development of their 
population. That is what we should want. And we should capture 
the next 18 months and after that to help them strengthen their 
capacity to manage the petroleum sector, for example, to 
increase their ability to detect corruption and fraud and such 
things and prosecute that, to bolster the policing capacity of 
the government so it can intervene properly, appropriately in 
terms of communal violence, which is a significant problem.
    There are many issues like that that we could assist with 
which would help stabilize the South, show Khartoum that this 
referendum, this new future for the South is actually going to 
happen. We are the only ones that can come alongside them with 
enough ``oomph'' to actually make that kind of difference. We 
should not worry so much about appeasing the North, but make a 
major effort in strengthening the South.
    Ms. Jackson Lee. So every step they make, we make a step 
with them?
    Mr. Winter. Absolutely.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Payne. Thank you.
    We have been joined by Mr. Ellison, and I yield to him at 
this time.
    Mr. Ellison. Thank you, Mr. Chair.
    And let me thank the panelists, as well. It is good to see 
you all.
    A few questions. First of all, I have a trip planned to 
Darfur on August 4th, and so this hearing comes at an extremely 
timely moment.
    Could you, Mr. Prendergast, give the committee--and, again, 
I know you have already talked about this. Forgive me for 
getting here late. We had double hearings going on.
    Can you give us the latest on the humanitarian condition of 
people in Darfur? What are we looking at right now?
    Mr. Prendergast. I think what we are seeing is a very slow 
and steady deterioration. You know, we saw--and this gets to 
the heart of this big debate about whether or not it is 
genocide. You know, we saw the mass ethnic cleansing campaigns 
in 2003 to 2005 where most of the villages of the particular 
groups that were targeted--the Fur and the Zaghawa and the 
Masalit--were burned. So they were gone. Those villages had 
been destroyed, and those people are now in camps.
    So, in those camps--and part of what some of us believe and 
have contended is genocide by attrition, or genocide by other 
means, is then the turning on and off of the tap of the 
humanitarian aid tap in many different ways. It is not just 
expelling NGOs. It is also, ``Oh, this area, by the way, is a 
red zone for the next 2 weeks.'' So there is no delivery of 
humanitarian assistance to these areas for a while, and then 
suddenly people's nutritional level goes down. You see the 
beginnings of outbreaks of particular diseases, et cetera, et 
cetera. Then suddenly it is not a red zone anymore and the 
agencies can rush back in. So you get that tactic and a number 
of other approaches to undermining the nutritional and health 
status of people in the camps and breaking their spirit.
    And the biggest spirit-breaker and attempted spirit-breaker 
is a policy, I think, which is--and the ICC clearly agrees, in 
the indictment of President Bashir--is a policy of support for 
security elements, both official and unofficial, in other words 
military and paramilitary, of rape as a tool of war, rape as a 
tool of social control.
    It is clearly in every empirical effort to collect evidence 
or data about rapes, and often NGOs that do that are expelled. 
So we don't know, in a lot of places, what is going on, but we 
have an anecdotal evidence that it is one of the highest rates 
of sexual violence in the world.
    So with all of these factors, we are seeing, I think, the 
very slow, steady deterioration of people's capacities to cope 
with the conditions in these camps in long-term displaced 
environments.
    Mr. Winter. Could I----
    Mr. Ellison. Yes, sir.
    Mr. Winter [continuing]. Suggest that some of the 
approaches being taken by the special envoy could take us in 
precisely the wrong direction. We have the minutes of meetings 
that he had with various groups of NGOs and U.N. and other 
international officials in which he is saying very forcefully: 
Substantial returns of displaced Darfuris must begin before the 
end of this year.
    NGOs and others are unitedly saying the conditions are not 
right for that, to actually force them out of camps or do 
whatever you need to do to pressure them to return. So this is 
an artificial goal line that he is setting when the realities 
on the ground cannot properly cater for that. We could actually 
make the situation worse if we went down that track.
    Mr. Ellison. Yeah. And I may need to get with you gentlemen 
more after the hearing, because I don't think the chairman is 
going to let me talk forever. But I do want to see if you could 
offer some views on just two more topics, which I will state 
right up front.
    I have been hearing and reading about greater levels of 
violence in the South. I am interested in hearing about that.
    And I am also curious to know, what about the political 
solution? Ultimately, you know, the solution is not more aid, 
it is not more aid workers. Ultimately, the solution is a 
political resolution in which the Sudanese people come to an 
agreement about how to solve their problems and live together. 
Could you talk about the North-South agreement and then the 
Khartoum Darfuri agreement?
    Mr. Prendergast. You were just there. Do you want to talk 
about the levels of violence?
    Mr. Winter. Yeah, let me tell you how this kind of stuff 
comes about. Khartoum fosters instability. Their policies 
foster it. The most violent or, I should say, volatile place in 
all of Sudan, in my view, is this place called Abyei, which was 
burned to the ground in May of last year. All right? These 
people remarkably come back, the civilians. They all ran away. 
Now the largest number of them are back.
    How do they destabilize the population? There are lots of 
ways. Some of it is pure violence. The very people who burned 
the place down in May of last year, the officers of that 31st 
Brigade that did that, they almost all got promoted. They are 
right up the street from Abyei now, hundreds and hundreds of 
those same guys that did that. So there is an ever-present 
threat that this is going to happen again, for example.
    Or let's take a less directly violent kind of approach that 
Khartoum uses. After the arbitration process began, there was 
supposed to be a budget. It is provided for in the CPA that 
there be an Abyei administration that is supposed to provide 
services to the people, because, for the last 3 years, 
President Bashir wouldn't advance the requirements of the Abyei 
protocol, and there was no governance there at all. So there is 
supposed to be a government there.
    That government was supposed to operate on a fiscal year 
that began last October. They never got an appropriation. To 
this day, there is not an approved budget for that government 
to function. They did get a little bit of an advance from the 
government, but fundamentally none of the employees of the 
Abyei administration have been paid since January.
    This is the kind of, by presence and by dereliction of duty 
in terms of supporting the government structures in the South 
and in Abyei, this is the kind of way Khartoum destabilize the 
population.
    Mr. Prendergast. And I will take the second question about 
political solutions.
    I think that the CPA, this Comprehensive Peace Agreement, 
and the North-South deal demonstrates beyond a shadow of a 
doubt that a political solution in Sudan is possible if we 
pursue it diligently in a sustained basis, using the leverage 
of the United States, working with other countries around the 
world as partners, to bring about a peace for particular areas 
of the country. We need an all-Sudan solution focused on peace 
and stability.
    But to speak to the two biggest conflict zones of the 
country, Darfur and the South, very quickly--first, Darfur. We 
talked a little bit about this throughout the hearing, but to 
really kind of focus it, it requires a more effective peace 
process than there presently exits.
    The thing that has been going on in Doha has bled along now 
for quite some time, and it is a continuation of other 
processes that have really yielded no fruit. And, strangely, 
the United States, after having led the North-South peace 
process, having built an international coalition to bring about 
one of the great achievements, I think, of the Bush 
administration in foreign policy, we then didn't do the same 
thing for Darfur.
    And now the Obama administration hasn't begun with that 
kind of an objective. We basically deferred to the Arab League 
and deferred to other actors who are in the driver's seat right 
now and allowed for this process to continue. And there is no 
reason why we shouldn't be working intensively with all those 
partners, but the current process will not yield a deal, and 
everyone believes it, especially Darfuris.
    So the U.S., very respectfully--and everyone is pretty much 
waiting for us to do this anyway, just like they waited for us 
to do it in the North-South deal, is to get involved and lead 
the construction of a more effective process that involves all 
of the current players but arranges it in a way, just like we 
did in the North-South deal, where everyone has a particular 
role to play. Someone has to quarterback this; someone has to 
grab the ball under the center and diagram the play and make 
sure we can march downfield to get to the goal line.
    That is just the way peace processes work. When I worked in 
the previous administration and the Clinton administration, 
that is how you do it. You build a strategy, you get the 
partners together, and you move the ball down the field, one 
play at a time. And you are thinking five plays ahead, but you 
have to play out the existing one.
    So the U.S. needs to lead the construction of that process. 
I don't know why the last administration and this 
administration hasn't decided to do that.
    With the CPA, I think it is very clear to all of us in this 
room, up there on your dais and down here, those that are 
testifying, that it is one thing--and the U.S. has gone down a 
road now in the last few months of attempting to negotiate the 
implementation of the provisions of the North-South deal. And 
that is, I think, a problematic approach.
    They have already made a deal. Everyone has agreed to 
respecting that deal, as we saw with the latest example of the 
Abyei report on the drawing of the boundary, which the SPLM and 
the Government of Southern Sudan accepted even though it had 
altered the original judgment. But the U.S. rather should be 
leading an international effort to build clear consequences for 
non-implementation.
    We have 1\1/2\ years left. It is literally the sprint to 
the finish line of this marathon. And if there are going to be 
additional major diversions away from that course that is set 
now by the agreement that both parties have signed and 
committed over and over to, if there is not a consequence for 
diverting from that path, by whoever it is, whether it is the 
SPLM or the National Congress Party, whether it is the 
Government of Southern Sudan or the regime in Khartoum, then we 
will fail. Then that agreement will not be implemented, and we 
will see a return to war between the North and the South.
    There needs to be international multilateral consequences 
for the obstruction of implementation of that deal. That is the 
role of the United States Government right now.
    Mr. Ellison. Is the work that General Gration is doing now 
helping to provide a basis for the kind of structure that you 
have just identified? Or are we heading in the wrong direction? 
I am not asking you to comment on him professionally, because 
everybody----
    Mr. Prendergast. Yeah, I understand.
    Mr. Payne. Oh, you can comment like you have been. You can 
feel free to comment.
    Mr. Prendergast. Okay. He goaded me. Look at him.
    Mr. Payne. Call it unprofessional.
    Mr. Prendergast. Well, I think that--first of all, I think 
what General Gration has brought is quite a significant energy. 
He has direct access to the President and to the key actors in 
the White House. And he is absolutely committed to seeing a 
solution in Sudan.
    I believe, after extensive discussions with him--and we 
have had it out in his office many times--that he has just made 
an incorrect policy analysis and, thus, a direction for U.S. 
Government policy in Sudan.
    And that is why I believe we ought to be and Congress ought 
to be investing in attempting to influence the Sudan policy 
review that the United States Government is currently engaged 
in, because that, then, will be the marching orders for General 
Gration.
    And it is up to Secretary Clinton and Ambassador Rice and 
Vice President Biden and the President himself to weigh in on 
the basis of their principles and what they have said 
throughout the last 10 years of their careers about issues 
related to Sudan in different fora over and over again, so that 
we can see a policy that is rooted in what I think is a very 
different view than General Gration has of what will influence 
the parties to actually make the compromises necessary to bring 
about peace in Sudan.
    Mr. Winter. Let me just say, I think he is on a very steep 
learning curve. He has been here, what, 5 months? The guys that 
he is dealing with in Khartoum have all been together with each 
other for 20 years. They know us very well. They don't have a 
steep learning curve. They read us very well.
    Mr. Ellison. You know, as I am trying to put my hands 
around the issue, I am sort of analogizing it to the work that 
you see Senator Mitchell doing in the Israel-Palestine 
conflict. It appears as though he is, sort of, putting 
foundation blocks in place so that he can get to a point of 
negotiation. And it sounds to me as though this same--there may 
not be a parallel structure going on. Do you understand what I 
am--yeah.
    Mr. Prendergast. What I am concerned about, at least in 
these first few months, George Mitchell had a running start 
there from 3 days after, I think, the inauguration. So he has 
been in there longer. However, I don't believe that the United 
States has made a decision--which, again, back to the policy 
review, what is the U.S. policy? And that is what Congress can 
influence. I don't believe the United States has made a 
decision to take the lead in constructing a revitalized peace 
process in Darfur.
    General Gration can't make that call. The United States 
Government has to decide that is our role. We have failed up 
till now for 7 years or 6 years, since 2003, to do anything of 
any meaning or consequence for those people in Darfur on the 
political front. This is now time for us to lead. Now go ahead, 
General Gration, and do it. That has to be done.
    And then on the other side, on the CPA thing, I really do 
think it is a--I am not sure if you think I am on the right 
track here, Roger. Again, I think it is very laudable that 
General Gration has taken a great interest in CPA 
implementation. He brought the parties here to Washington, to 
his credit. He is indefatigable. He works all the time. He is 
traveling everywhere.
    But he has made a decision to attempt to go down--there are 
two paths you can choose, I think, in this regard, very 
simplistically and crudely. One path is you negotiate the terms 
of implementation. The other path is you build a coalition to 
demand that the parties implement the deal they signed. That is 
two different ways of going about business.
    And I believe that he is going down the prior road, even 
though we still have the chance to address that through the 
Sudan policy review. So I just think he has made an incorrect 
choice, but on the basis of goodwill.
    Mr. Ellison. Can I ask a separate question off the subject? 
Again, I want to give full appreciation for the circumstances 
within Sudan. I know that there are real problems there, and I 
am confident of that. But Sudan is a country that is on the 
United States list of state sponsors of terrorism. And I just 
want to ask you, if you know, do you know if Sudan is engaged 
in activity that could legally be defined as terrorism beyond 
its own borders?
    Do you understand my question? And ``I don't know'' is a 
perfectly acceptable answer. But if you do know, I would be 
happy to hear what your thoughts are.
    Mr. Winter. I don't know.
    I would say that we have a number of sanction-like 
mechanisms in place. Some of them--for example, the idea that 
we don't have an Ambassador and we don't have a fully 
functioning Embassy in Khartoum--are really fraudulent. There 
are sanctions that we can speak to. I don't know how to speak 
to the issue of the state sponsors of terrorism.
    Mr. Ellison. Well, the Sudan is on that list, the United 
States list. And what I am just trying to ascertain is, you 
know, I mean, if a country, any country in the world, has 
certain problem, let's address those problems. If it does not 
have other problems, let's not address those problems. I mean, 
do you understand? I am just trying to be precise.
    Mr. Prendergast. Very, very good point. I get it. And it is 
a crucially important element of the strategy debate that is 
ongoing within the Obama administration. And I personally 
witnessed it when I worked in the National Security Council, 
even 15 or whatever it has been now, 10 years ago, that this 
was a live, hot-wire issue.
    It is clear that, after September 11, after some very 
significant representations were made publicly and privately by 
the United States and the Sudanese Government, the NCP, 
watching what was going on in Afghanistan, that they made some 
substantial alterations in their behavior. It had followed a 
number of years where bin Laden had been kicked out and a 
number of al-Qaeda operatives had been dismantled and taken 
out.
    But they have retained relationships with some of the 
organizations that remain of great interest to the United 
States and have dismantled and severed their relationships with 
others. And you can get, I think, a more pointed briefing from 
the State Department's counterterrorism person before you 
leave, just so you can get the specifics. I mean, I would be 
glad to talk to you afterwards about it.
    But, secondly and more importantly, there is a relevant, 
actionable consequence for this strange evolving relationship 
between the United States and Sudan on the terrorism front. 
Because, 10 years ago, we were locked in this quite difficult 
relationship with Sudan with respect to terrorism, where we 
were actively monitoring their direct involvement in operations 
that led to all kinds of different actions, including the 
assassination attempt of President Mubarak and many other 
things around the world.
    Today it is a very different relationship, as you know. 
There is a great deal of cooperation between the United States 
and the intelligence services within the Sudanese Government, 
overseen by Salah Gosh, the architect of the John Dewey policy 
in Darfur. And so, it complicates, I think--it has complicated 
the Bush administration's policies. It is complicating the 
Obama administration's debate over its policy.
    And I had the fortune to be in a meeting with President 
Obama and a few Senators on the day that he rolled out General 
Gration as his special envoy before the press came in. And it 
was a robust discussion about where the policy ought to go, and 
I thought President Obama got it completely right. It just 
hasn't been implemented the way he said it yet, because the 
policy hasn't been made yet.
    But there was an interesting exchange between a couple of 
the Senators who are on the Intelligence Committee in the 
Senate, and they said to President Obama very clearly, ``The 
level to which the Government of Sudan is offering the United 
States Government actionable and important intelligence for our 
counterterrorism efforts globally is overstated. And please do 
not allow that line of reasoning to pollute your decision-
making with respect to what we ought to be doing in Sudan. 
Don't let the counterterrorism imperative undermine the moral 
imperative of the United States Government's need to engage, 
again, with the kind of instruments that will actually 
influence behavior, that will bring about peace in that 
country.'' And I thought that was quite interesting.
    So there are a lot of things that Roger and I, as civilians 
now, wouldn't have access to, in terms of intelligence. But we 
have been around the block enough times to know where things 
are and where the bodies are buried, particularly. And it is an 
extremely complicating factor, because on the one hand the 
Sudanese Government is cooperating with the United States on 
counterterrorism, but on the other hand they retain 
relationships with certain groups which we are much more 
concerned about globally with respect to our counterterrorism 
imperatives.
    So that is why they remain on the list. And they remain on 
the list because Congress has been very strong in saying, don't 
remove these very specific penalties or pressures until we see 
real changes in behavior across the board.
    Mr. Ellison. And, you know, I don't know what my opinion is 
on this thing; I am still thinking about it. But I do think 
that it is legitimate for a country to say, ``Because of your 
human rights record, we are going to take this particular 
posture with you.'' But let's do it for the reason that we are 
doing it and not have a bunch of other stuff hanging out there.
    So, I guess, it was just a question. You answered it pretty 
well. Thank you very much.
    Mr. Payne. Thank you.
    Yeah, I think it is pretty clear that the same characters 
that are in place now were in place when they had a cozy 
relationship with Osama bin Laden. I mean, anyone who has 
followed this, Ghazi Salah al-Addin was the one who took the 
perpetrators of the murder attempt on Mubarak to Addis and, 
when the plan was foiled, personally escorted them by plane to 
Iran, or got them out of Sudan. And so he is the same guy that 
led and has cooperated with the person who is responsible for 
9/11, the most dastardly act on our country. Those people are 
murderers, no doubt about it. Salah Gosh was head of security.
    And you tell me that, all of a sudden, they love America? 
You tell me they are giving you information that is going to 
nail Osama bin Laden? You know, they are bad, but they are not 
that bad. And so, anyone who buys that, you know, is certainly 
being deceived.
    But it takes time, as you have mentioned. You know, our 
special envoy has been on the job for 5 months. And I agree 
with you, he has more energy and he is meeting and he is doing 
all that. However, those guys have been in place for 20, 30 
years. They made Turabi sound like he was the worst guy in the 
world, so they said, ``Look, we are saving the world. We are 
going to put Turabi in jail.'' Right? So he is in jail, and 
Bashir still reigns, because he says--you know, and we bought 
it. Well, Bashir has to be better than Turabi.
    So it is a learning curve, and I just hope that we don't 
have our pockets totally picked while this curve is being 
learned. Because we are losing in Sudan every day, there is no 
question about it, there is no doubt about it.
    Not one person has been brought up on charges who 
participated in these acts in Sudan. They are still in the same 
positions. And when people go to Khartoum, they are going to 
meet them, and they are going to have some wine with them, and 
they will have champagne in the nice hotels, and they will sell 
them a bill of goods because that is what they do. And they do 
it well.
    And we tried to caution--I was at that meeting with the new 
envoy before he left--``Be careful, they are slick.'' Right. So 
what happened? Zoom. You know.
    And even with the negotiations--four times in Khartoum, a 
half a day in Juba once, maybe a couple more days there at 
another point in time. But how are you going to have 
negotiations with the South, Darfur, and the Government of 
Khartoum when you spend all your time in Khartoum? And then you 
leave Khartoum, come to the States, and then go to China. What 
is that all about? I wonder what kind of concessions--because 
China is the big guy on the block. If they want to see changes, 
China will make the changes. They can push Bashir, and they 
really refuse to do so.
    And so, I think that my question is, have either of you had 
the opportunity to dialogue with the Senate? Senator Kerry 
heads up this issue in the Senate. What is your assessment of 
what is going on over there?
    Mr. Prendergast. I think Senator Kerry is faithfully 
supporting the Obama administration's direction in Sudan. And 
he has been a very strong supporter of General Gration. And 
there will be a hearing tomorrow morning, which will be very, 
very different than the hearing we had today.
    Mr. Payne. Well, you know, we couldn't get the General to 
testify because we are only a subcommittee, and therefore he 
was not allowed to testify. Of course, the Assistant Secretary 
can't testify, because you have a special envoy; therefore, he 
can't testify. Not that there is anything wrong you two.
    Go ahead, John.
    Mr. Prendergast. Well, I think, you know, the good news is 
that there are some very strong voices on Sudan in the Senate, 
just like there are here, on body sides of the aisle. And I 
think that the chairman and the ranking member of the 
Subcommittee on Africa, your counterparts in the Senate, 
Feingold and Isakson, are fantastic on these issues. They are 
very, very committed, just like you two are.
    And I really think that, you know, again, if anything is 
going to work, just like it did with the Clinton 
administration, just like it did with the Bush administration--
unfortunately, here we are again--Congress is going to have to 
weigh in with principle in pressing and pushing another new 
administration to not be fooled again, to not make the kind of 
mistakes that people keep making with respect to this regime in 
Khartoum.
    So, I mean, that is the hope, is that the subcommittees of 
these two International Relations and Foreign Relations 
Committees will lead the charge and muster enough of a 
coalition on both sides of the aisle. Because this remains a 
bipartisan issue, fantastically. I mean, you saw it today, two 
Republicans and one Democrat sitting here. You don't even know 
which one is which, because we are all saying pretty much--we 
are reinforcing each other's messages. And you guys up there 
are reinforcing each other's messages.
    And that is our hope for these U.S. policies. We are going 
to have to take that hopefully accumulated experience and 
deliver it, at least let it be heard by Secretary Clinton, let 
it be heard by Ambassador Rice, let it be heard especially by 
Vice President Biden who was so strident in his Senate career 
and in his campaign and has disappeared on this issue. And he 
needs to show up at that principals' committee meeting when 
they have it on Sudan, and he needs to be a voice at the table 
for a principled policy.
    Mr. Winter. Yeah, I would just add that I think we have 
some erosion in the Senate, because now we have at least two 
Republican Senators who also, as did Kerry, go simply to 
Khartoum and Darfur and never approach the South. And that is 
the kind of pattern that I would not like to see expanded in 
any way.
    Ms. Jackson Lee. Would you yield?
    Mr. Payne. Mr. Smith and then----
    Ms. Jackson Lee. I am not going to ask any--if he would 
just yield for just a moment, I just want to reaffirm that the 
South is very important. And many of us, Mr. Chairman, are 
going to try and go back to Sudan and never leave out any part 
of the country. I think we should go everywhere.
    And I will yield back, Mr. Chairman. Thank you.
    Mr. Payne. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me say, we are joined at the hip on this. And I think 
it is important that we say this: There is no politics in this, 
absolutely none. There is no separation, Republican or 
Democrat. And that is the way it was when I was chairman of 
this committee and chair of the Human Rights Committee for 6 
years before that. We always spoke out. And Mr. Payne was on 
that committee and was ranking, and now I am ranking on this.
    So I hope everyone here understands that, that we--I wish, 
frankly, that the three of you, four counting the Secretary 
General, could present your testimony. Because in the written 
form it is powerful, but the way you have conveyed it here 
today, the NSC needs to hear it.
    So my hope is that--I mean, we will convey your testimonies 
to all of the principals and say, you have got to look at this 
and take the time to understand that the collective wisdom of 
the four of you cannot go unheeded.
    You know, I have been in Congress 29 years, and I am 
shocked--shocked--how, so often, some of the best and the 
brightest, executive branch and congressional, miss by a mile 
all of the alarms and the warning signals, early warning 
signals, that are out there.
    I will never forget when General Dallaire--and we knew 
about that soon after he made his, you know, the so-called fax 
that went to the United Nations, that there was something that 
could have been mitigated and maybe stopped completely, and 
that was the terrible genocide against the Rwandan people. That 
was under the Clinton administration.
    And while under the Bush administration, Bush I, we had 
early warning information that when the declaration of 
independence occurred in the former Yugoslavia, of Slovenia, 
Bosnia, and Croatia, that Serbia, Milosevic would quickly turn 
his guns and his hate toward those countries.
    And Larry Eagleburger, you know, number two at the State 
Department, former Ambassador to Yugoslavia, spent time in 
Belgrade. Never thought it would escalate to the killing fields 
and the genocide in Srebrenica and elsewhere that occurred.
    And Mr. Winter mentioned earlier two possible outcomes: A 
vote, a plebiscite that leads to independence; or a unilateral 
declaration. I am very concerned that, if we are not careful, 
that will trigger a whole new renewed fighting, and we will 
have the best and the brightest here on Capitol Hill saying, 
``Now, how did that happen?''
    You have given us, I think, the early warning that we need 
to more robustly be engaging the 79,000 AK-47s that are being 
strategically placed among people who could use them to great 
harm. And that may be an underestimation; who knows? And I 
would be interested in knowing what you know about that. That 
sounds like an order of battle that is being placed for, you 
know, a terrible bloodletting. So I would appreciate your 
thoughts on that.
    And in terms of a referendum, 2010, which is now the date 
that slipped--I guess no one has a month.
    Mr. Winter. January 2011.
    Mr. Smith. Say it again?
    Mr. Winter. The referendum is scheduled for January 2011.
    Mr. Smith. 2011, okay. Now, can the logistics be 
accomplished? You know, the IDPs, the census that would be 
required, all of that, is that enough time to get it together?
    And if you would talk about the early warning. How do we 
prevent what would be an unmitigated disaster if we don't heed 
your warnings and tell the people in our own Government, all 
carrots, no sticks--and all three of you have said that--you 
know, is the path to disaster?
    Mr. Winter. I think we have the time to put in place the 
architecture we need to do a referendum. The question is, will 
the enabling legislation be adopted in the Parliament in 
Khartoum? Which they already say they refuse to do. All right?
    So the pattern, just as with regular elections and every 
other thing that they really don't want to do, is ultimately 
not to decline it absolutely, but just to delay and then delay 
further and delay further. That is, I would suspect, a likely 
thing, which, of course, raises ultimately that possibility of 
a unilateral declaration if they don't get the opportunity do 
what the CPA guarantees them.
    Mr. Prendergast. Plan A is delay. Because that is the 
easiest and that is the one that, you know, diplomats buy into 
because then maybe we can work this and maybe we can negotiate 
that.
    Plan B is the 79,000 AK-47s. Plan B is what I think we just 
need to understand the empirical evidence of the last 20 years 
demonstrates, and that is that this regime has used a policy of 
supporting paramilitary units, of supporting militias to fight 
its conflicts in the periphery of the country, in the South and 
the Southwest and in the West in Darfur.
    Whether it is called Murahaleen, as Pa'gan was talking 
about earlier, or whether it is call the Janjaweed today in 
Darfur, whether it is the Nuer militia in Southeast Sudan in 
the early 1990s that led to what may have been the bloodiest 
period of conflict in Sudan's history, they consistently use 
the same approach, which is--and it is a very effective one--
of, if it ain't broken, don't fix it, keep doing it.
    And so, what is the upshot? If there is no consequence for 
that, if the Government of Sudan can go ahead and just 
distribute these kinds of weapons and then throw the match on 
the gasoline and say, ``Look at those Southerners, they can't 
govern themselves; we had better not have that referendum now, 
let's delay it,'' if we allow that to happen, as they 
increasingly--and it is the same thing as the first month of 
the genocide we saw. People were like, ``Wait a minute, isn't 
this ancient interethnic tribal violence?'' No, it is a 
government strategy aimed at dividing and destroying opposition 
for a political objective: Maintaining power by any means 
necessary. That is what it is.
    So we just need to understand it, get in front of it. And 
then what to do about it? Because I don't want to just make the 
critique and then not say it. There has to be consequences for 
this kind of behavior at the end of the day. And that requires 
difficult diplomatic engagement with a number of countries, 
including Beijing and Moscow, to talk about, ``Okay, what are 
these consequences going to be?''
    And if we can't do it through the United Nations Security 
Council, if two-fifths of the permanent members of the Security 
Council will refuse and veto anything we do or obstruct--which 
I don't believe they will; I think they will stand down and 
abstain--then we need to build the disgraced phrase, 
``coalition of the willing,'' who are willing to say, ``Okay, 
if the Government of Southern Sudan, if the Darfur rebel 
movement, if the Government of Sudan--whoever it is--undermines 
peace and security in the country, they will be on the 
receiving end of the following set of escalating 
consequences.''
    That is the way we are going to get some measure of 
progress toward peace and democracy in Sudan, I think.
    Mr. Payne. Ms. Jackson Lee?
    Ms. Jackson Lee. I am fine, sir.
    Mr. Payne. Okay.
    Well, let me certainly thank the witnesses for this very 
interesting hearing. Always the passion that you have has been 
really a breath of fresh air, to know that we still have people 
on the fighting line.
    Let me also thank the audience, who--you know, this hearing 
was supposed to be at 3:30, and with all of the problems that 
we had, it shows the interest that you have to be here after 8 
o'clock. No cameras, no Voice of America, no C-SPAN, simply 
interest. And so I know we are on the right side.
    Ms. Jackson Lee. Members, too.
    Mr. Payne. Members, too. Oh, no question about it, which--I 
am going to bring that up in the CBC next week to say, ``There 
were no cameras, and she came back.''
    Ms. Jackson Lee. And came back.
    Mr. Payne. And came back. I know we are on the right track 
now.
    But it shows the interest. It certainly is very difficult--
if there were solutions, there would not have been a special 
envoy. Ever since I have been in Congress, I remember at least 
1995 was the first one, when my former colleague became a 
special envoy, Congressman Harry Johnson. Maybe it was later 
than that. But we went through Johnson and Natsios and Danforth 
and the head of the World Bank, Zoellick.
    And, I mean, the difference in Sudan, when my colleague 
asked the question about special envoys, there has been a base 
for the new special envoy to open up to see where the last one 
left off, because we have consistently, for a decade or 15 
years, have had a special envoy dealing with Sudan, which, I 
mean, believe it or not, is as important an issue as the 
Israel-Palestinian effort is.
    This is the first special envoy that has been appointed in 
7, 8, or 10 years. Bush II had no special envoy to deal with 
the issue. But during that whole time, every President has had 
a special envoy since I can remember, from Clinton to Bush, on 
Sudan, whether it is Darfur or the CPA. And so there is no 
excuse, you are not reinventing the wheel with our new special 
envoy. You have volumes of information to review, and so you 
don't have to recreate the will Senator George Mitchell was 
recreating. He was starting from scratch. The envoys are here.
    And so I just hope that the administration can get on the 
same page. As we mentioned, President Obama said that the 
decision on the expelling of the 13 international workers and 
three NGOs should be reversed. Secretary Clinton said it should 
be reversed. The U.S. Ambassador to the U.N. said it should be 
reversed. Yet the special envoy went and, in direct 
contradiction to all of that, signed an agreement that said it 
doesn't have to be reversed.
    So one thing, for sure, is that there has to be one page as 
it relates to the other one, because those guys will pick one 
off against the other. Nontheless, you have Vice President Joe 
Biden, who supported my resolution of a no-fly zone. He was the 
only one in the Senate who said, if a plane went in to bomb 
with those drones again, take the planes in, he is with them. 
Now, you can't be any stronger than that. But, now, again, 
where is the beef?
    The meeting is the adjourned.
    [Whereupon, at 8:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
